No. 20-828
IN THE

Supreme Court of the United States
FEDERAL BUREAU OF INVESTIGATION, ET AL.,
Petitioners,
v.
YASSIR FAZAGA, ET AL.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATE OF SERVICE
I, Catherine M.A. Carroll, a member of the bar of this Court, hereby certify that,
on this 19th day of January, 2021, all parties required to be served have been served
copies of the Brief of Respondents J. Stephen Tidwell and Barbara Walls in support of
Petition for a Writ of Certiorari in this matter by email and overnight courier to the
addresses on the attached service list.

CATHERINE M.A. CARROLL
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
catherine.carroll@wilmerhale.com

SERVICE LIST
Counsel for Petitioners

Counsel for Respondents

SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
OFFICE OF THE SOLICITOR GENERAL
950 Pennsylvania Ave., NW
Washington, DC 20530
(202) 514-2217
SupremeCtbriefs@usdoj.gov

AHILAN T. ARULANANTHAM
ACLU FOUNDATION OF
SOUTHERN CALIFORNIA
1313 West Eighth Street
Los Angeles, CA 90017
(213) 977-5211
aarulanantham@aclusocal.org
ALEXANDER H. COTE
SCHEPER KIM & HARRIS LLP
601 West Fifth Street, 12th Floor
Los Angeles, CA 90071
(213) 613-4655
acote@scheperkim.com

2

